cf]

1

Tsfo.

=

5 035
IN THE

Supreme Court, U S.
FILED

JUN 2 9 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

WASHINGTON, D.C.

RON PYLES, JR. -PETITIONER

vs.

CHARMAINE BRACY (Warden) -RESPONDENT

ON PETITION FOR A WRIT OF HABEAS CORPUS FROM

THE SUPREME COURT OF OHIO

PETITION FOR WRIT OF CERTIORARI

Ronald Pyles Jr., #634-885
Trumbull Correctional Camp (TCC)
P.O. Box 640
Leavittsburg, Ohio 44430
(330) 898-0820

i

QUESTIONS PRESENTED

QUESTION I: Isn’t it true, that, under the “recusal standard” addressed in 28 U.S.C.S. §455(a);
“what matters is not the reality of bias or prejudice but its appearance, and quite simply and quite
universally, recusal is required whenever impartiality might reasonably be questioned. Justice
must satisfy the appearance of justice. The very purpose of §455(a) is to promote confidence in
the judiciary by avoiding even the appearance of impropriety whenever possible.”
QUESTION II: Was it a violation of Brady and of “Due Process” for the state to withhold
evidence from the defense that clearly preserved a second instance of previous testimony, by the
alleged victim, given under oath, that was in complete contradiction to her present testimony
given during the defendant’s criminal proceedings?
QUESTION III: Was the defendant denied effective assistance of Counsel, by Counsel’s
incompetence and multiple failures to represent the defendant through; failure to perform any
type of investigation, failure to issue subpoenas to known witnesses and transcripts, failure to
preserve issues through objection and failure to actively participate in the questioning of the state
witness /alleged victim to determine competency.
QUESTION IV; Is it proper for an Attorney, to attempt to serve as a criminal trial lawyer,
which is a manner inconsistent with Counsel’s actual skills, abilities, knowledge and experience
or was there a duty of self-recusal by the counselor to conduct himself in a manner consistent
with ethical, professional criteria?

n

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.

[] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:

iii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3,4

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

19
INDEX TO APPENDICES

Appendix A - Decision of the State Court of Appeals denying reconsideration (13MA22)6/9/16
Appendix B - Decision of the State Trial Court judgement entry (12CR570) 1/30/13
Appendix C - Order of the State Supreme Court Denying Review (2021-0235)4/13/21
Appendix D - Decision of the State Supreme Court Denying Review (2021-0235)4/13/21
Appendix E - Trial Court Discovery Motion (12CR570) 07/19/2012
Appendix F - Decision of the State Supreme Court Denying Review (2016-0867)7/27/16
Appendix G - CPO Appellate Hearing Decision (Case 11 MA 124), 11/14/12
Appendix H - Motion for Transcript 2011 GI13 the Withheld 'Probate Transcript
Appendix I - Judgement entry ordering 2011 GI 13 Transcript to Prosecutor 01/07/13
Appendix J - Denial by Common Pleas of Post-Conviction and Delayed Appeal 11/20/19
Appendix K- S. Ct Disciplinary Council findings against attorney Billing 11/06/20
Appendix L - Judge Evans Obituary showing North Jackson Township Trustee affiliation
IV

CASES
•

PAGE

United States v. Brown, 539 F.2d 467

4,9,10

In re United States, 441 F 3d.44, 2006 U.S. App. LEXIS 7779

10

Roberts v Bailir, 625 F2. d 125

11

Morton v Pyles, 7th Dist. No. 11 MA 124, 2012- Ohio-5343

6,8

United States V Sierra Pac. Indus., 759 F. Supp. 2d 1198

11

Brady v Maryland

13

United States v Benn, 476 F.2d 1127

17

Strickland v. Washington, 466 U.S. 668

15

Wiggins v Smith, 539 U.S. 510

16

United States v Cronic, 466 U.S. 648

16

United States v Bagley, 473 U.S. 667 675 (1985)

14

Kyles v Whitley, 514 U.S.419

13

STATUTES AND RULES
•

28 USCS § 455 (a) and (b)

•

USCS Fed.Rules ofEvidR. 613, (b)

12

•

Ohio Evid R. 613. (B)

12

•

Ohio Evid. Rule 801(D)(1)

12

•

OACANN. 4715-15-21(D)

4

•

USCS Fed Rules Crim. Proc. R. 52

3,4, 9,10,11

4,14

v

OTHER
•

Akron Bar Ass’n v. Maher, 110 Ohio St.3d 346

•

USCS Amendment Fourteen. Due Process Clause

3

•

USCS Amendment Five - Due Process

3

•

USCS Amendment Six- Rights of the Accused

3

vi

16

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR CERTIORARI

OPINIONS BELOW
[] For cases from federal courts;
The opinion of the United States court of appeals appears at Appendix

to the petition and

is

[] reported at________________________________________ or,
[] has been designated for publication but is not yet reported; or,
[] is unpublished.

The opinion of the United States district court appears at Appendix
is

to the petition and

[] reported at____________________________________ [] has been designated for publication but is not yet reported; or,
[] is unpublished.

[X] For cases from state courts:
[] The opinion of the highest court to review merits appears at Appendix “A” to the petition and
is

[] reported at________________________________________
[] has been designated for publication but is not yet reported; or,
[X] is unpublished.

The opinion of the “Supreme Court of Ohio appears at Appendix “D” to the petition and is
[] reported at_____________________________________________
[] has been designated for publication but is not yet reported; or,
[X] is unpublished.

1

JURISDICTION
[] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
[] No petition for rehearing was timely filed in my case.
[] A timely petition for rehearing was denied by the United States Court of Appeals on the
following date:
, and a copy of the order denying rehearing appears at
Appendix____
[] An extension of time to file the petition for a writ of certiorari was granted to and
including
(date) on
(date) in Application No.__A
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1)

[X] For cases from state courts:
The date on which the highest state court decided my case was April 13, 2021.
A copy of that decision appears at Appendix C.

[] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing appears at Appendix_____.

[] An extension of time to file the petition for a writ of certiorari was granted to and
including
(date) on
(date) in Application No.__A
The jurisdiction of this Court is invoked under 28 U.S.C. §1257faJ

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

USCS Amendment Fourteen. Due Process Clause
Sec. 1. [Citizens of the United States.] All persons bom or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of the laws.
USCS Amendment Five - Due Process
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases arising in the land or naval forces, or in the Militia,
when in actual service in time of War or public danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due process of law; nor
shall private property be taken for public use, without just compensation.
USCS Amendment Six- Rights of the Accused
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory process for obtaining
witnesses in his favor, and to have the Assistance of Counsel for his defense.

28 USCS § 455 (a) and ('b') - Disqualification of Justice judge or magistrate
(a) Any justice, judge, or magistrate [magistrate judge] of the United States shall disqualify himself in
any proceeding in which his impartiality might reasonably be questioned.
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or personal knowledge of disputed
evidentiary facts concerning the proceeding;

3

(2) Where in private practice he served as lawyer in the matter in controversy, or a lawyer with whom
he previously practiced law served during such association as a lawyer concerning the matter, or the
judge or such lawyer has been a material witness concerning it;
(3) Where he has served in governmental employment and in such capacity participated as counsel,
adviser or material witness concerning the proceeding or expressed an opinion concerning the merits of
the particular case in controversy;
Recusal statute, 28 USCS § 455(al and (b), requires mandatory disqualification of judge in any
proceeding in which his impartiality might reasonably be questioned or where he has personal bias or
prejudice concerning party. United States v. Brown. 539 F.2d 467.1976 U.S. Add. LEXIS 6954 (5th
Cir. 19761

USCS Fed. Rules Crim. Procedure 52 - Harmless and Plain Error
(a) Harmless error. Any error, defect, irregularity, or variance that does not affect substantial rights
must be disregarded.
(b) Plain error. A plain error that affects substantial rights may be considered even though it was not
brought to the court’s attention. (Emphasis Added)

OACANN. 4715-15-21 CD) - Depositions in lieu of testimony at hearing and transcripts of prior
testimony for submission at hearing.
(D) Any deposition or transcript of prior testimony of a witness may be used for the purpose of
refreshing the recollection, contradicting the testimony or impeaching the credibility of that witness. If
only a part of a deposition of prior testimony is offered into evidence by a representative, the opposing
representative may offer any other part. Nothing in this paragraph shall be construed to permit the
taking of depositions for purposes other than those set forth in paragraph (A) of this rule.

4

STATEMENT OF THE CASE
1. Petitioner was indicted, convicted and imprisoned through a bench trial proceeding, that was
held on January30, 2013
2. Petitioner was sentenced to ten (10) years in prison, subjected to submit to registration as a sex
offender, along with PRC upon release.
3. This court has jurisdiction over cases decided by the highest court in the state.
4. Petitioner’s conviction is founded entirely upon testimony, that alleged rape by digital vaginal
penetration and gross sexual position with an impotent pastor.
5. Care providers, Anna Robinson and Patti Amendolea, provided care for O.H. However, it was
in excess of a year passing with O.H. before any allegations of inappropriate contact ever
manifested.
6. O.H. had been receiving cognitive behavioral counseling for her erratic and inappropriate acts
of masturbation which were frequently observed on many occasions by many other people.
(None of which were subpoenaed by Defense Counsel)
7. Prior evaluations by experts, classified O.H. as an intellectually disabled young lady, who
fantasizes over partaking in sexual relations with others. She has been discovered masturbating,
publicly numerous times.
8. The alleged victim O.H. testified twice under OATH, that her relationship with Petitioner, was
for counseling, worship and a father figure. There exists observable confusion by O.H.
dependent upon whether the questions were posed by the state or the defense.
9. Furthermore, the State knowingly and willfully ordered the probate hearing transcripts on the
day of the start of the Criminal Proceedings. The State then withheld the findings of testimonial
evidence (exculpatory) from the Mahoning County Judge and defense counsel.
10. The Motion from Prosecutor Frenchko shows these transcripts were known to the state and
requested the morning of the proceedings but withheld from the defense. (See Appendix H
“Motion”) Judge Blinkey of the Probate Division ordered the transcript be given to the
prosecutor, and the (Appendix I the “Order”)
11. An immediate hearing is requested to fully explain Petitioner’s case for a hearing and
ultimately his release.
12. Petitioner makes application for a ‘Writ of Certiorari’, as he is “unlawfully restrained of his
liberty”.
13. Petitioner filed a motion for new trial which was denied without a hearing and without an
opinion on November 20, 2019. Hence, the Court blatantly disregarded the Brady violations,
which prejudicially injured the defense.
5

14. Petitioner has exhausted or been frustrated in exhausting local remedies. After a grievance
against his attorney, Steven Billing, Esq., file no. CO-1379 on November 6, 2020. Disciplinary
Counsel acknowledges ‘Ineffective Assistance of Counsel’ has occurred, thus denying
Petitioner his sixth and fourteenth amendment to the United States Constitution to have his case
heard. (Appendix K)
15. The foundation of O.H.’s masturbatory behaviors are the resulting effects caused by an
incestuous sexual assault by her mother and her mother’s boyfriend, at the age of fourteen; Kim
Homyak (mom), case #2006-CR-0411. Att. David Gerchak rep. boyfriend. As Attorney
Gerchak also represented Petitioner in case herein. These proceedings culminating in a 10-year
prison sentence for the boyfriend and probation for O.H.’s mother.
16. Olivia Hartman, hereinafter, O.H., gave testimony in contradiction of previous testimony,
which was the result of a scared, intellectually disabled 19-year-old female, who was tom from
her home at Victory Harvest Ministry. (VHM)
17. The testimony given by O.H. in Defendant’s criminal proceeding appear to be the result of
suggestive and manipulative measures that evolved into this so-called rape case.
18. Transcripts from the Mahoning County Court of Common Pleas CPO hearing, Case No.
11CV638; Morton v. Pyles. 2012-Ohio-5343 and probate hearing, case, #201 l-GI-00013
determine that Mr. Pyles is innocent and that a reasonable doubt has never been determined
from an unbiased court of law.
19. It holds the appearance of biasness of Judge James C. Evans, who had worked as legal advisor
of North Jackson Twp. Board of Trustee’s and chose not to recuse himself. There have been
several years of persecution and a number of civil legalities in North Jackson Ohio, with Mr.
Pyles’ church and addiction treatment facility. With a ‘Conflict of Interest’ present, it would
run contra to the Code of Judicial Conduct; Canon 2 set out by the Supreme Court of Ohio for
the judge not to recuse himself.
20. Additionally, Judge Evans had previously ruled improperly against Defendant when he
incorrectly ruled and granted a CPO order against Defendant Pyles without any substantial
evidence and proof. Much like we have with the case herein. - (NOTE CPO order was reversed
on appeal) (Appendix G)

6

REASONS FOR GRANTING THE WRIT
As this Court clearly holds jurisdictional authority to review and reverse a case where it is premised on
Brady violations, ineffective assistance of counsel and abuse of discretion by the trial court for failing
to reverse this case for the judge’s failure to recuse himself. This case remains despite exhaustion of all
other remedies including Post Conviction, Appellate and Ohio Supreme Court petitions.

Question I
This case involves allegations by the alleged victim, Olivia Hartman, hereinafter O.H. against Pastor /
Defendant, Ronald Pyles, hereinafter Defendant. At this point in our great nation’s existence it has
become more and more common for people to come forth seeking retribution for the crimes and
attacks they have suffered. While this is absolutely proper, there must exist a level of reasonableness to
ensure the process establishes true culpability and guilt while in the pursuit of the truth. We believe
that when viewed in totality the records will reveal a blatant miscarriage of justice.
This is a “he said, she said” proceeding suffused with malicious intentions of the judge, witness
manipulation by guardians, perjured testimony by the confused and manipulated witness and
incompetence of defense counsel culminating disastrously with the incarceration of an innocent man.
We will begin explication of the submitted questions as they respectively appear under “Questions
Presented”.
This case is not only about the trial of a Defendant, accused of inappropriate behaviors, but also about
the secretive malicious actions of a judge whose persecution of this Pastor had continued over a period
of many years. As the evidence presented herein will reveal, there existed a hidden history between the
judge (Judge James C Evans) and the Defendant which began as early as 1994 and continued on in
various manifestations, until the time of this trial.

7

The Defendant served his congregation as a church Pastor. Additionally, his church operated
substance abuse treatment center in North Jackson Ohio beginning in 1994.
Beginning in 1994, James Evans, the judge in this case, served as legal advisor of North Jackson Twp.
Board of Trustee’s. (See Obituary Appendix F) During the entire time that James Evans served the
Trustees, an excessive number of unscheduled Health Department and Fire Department inspections
were executed. (In excess of the once a year standard requirement). No violations were ever noted and
no citations were ever issued. It was clear to any casual observer that the actions by Evans and the
trustees were malicious and with an intent to close down the Treatment Center. Typically, the types of
persons who need and use the services provided by a treatment shelter are not composed of the type of
people that a residential home owner desires to be in close proximity to. Eventually the Defendant
contacted the State Fire Marshall from Columbus Ohio who intervened on the Defendant’s behalf and
ordered Evans to cease the harassment of the Defendant’s facility.
In yet another hostile encounter, Evans and the North Jackson Township Trustees served the
Defendant with an order to remove his personal fifth wheel camper from the church property. It was
the Trustees contention that the camper was in violation of some ordinance. In this incident,
intervention by the American Center for Law and Justice, threatening a lawsuit, was necessary to end
this new angle of attack by Evans and the North Jackson Township Trustees.
Subsequent to the several years of harassment described above, Judge Evans oversaw the proceedings
of a CPO hearing involving the Defendant and O.H.’s guardian, Dorothy Morton. Judge Evans had
signed the order to issue the CPO. However, on appeal, “the judgment of the trial court was reversed
and the protection order was vacated.” See Morton v Pyles, 2012-Qhio-534.
Excerpt from the Overview - The testimony was clear that the 20-vear-old ward wanted to have
contact with the pastor: she wanted to see him and communicate with him. Although the ward had a
mental disability, requiring a guardian, the record failed to disclose the extent of her disability. The
8

ward’s caregiver testified that when there was contact between the ward and the pastor, whether by
telephone or visit, the ward was "difficult to deal with" afterwards and there was a lot of crying.
However, when there was no contact, the ward’s behavior improved and she seemed happy and
interacted well with the caregiver. While the testimony did show a change in behavior, it was not
enough to show mental distress. It could not be determined whether the pastor was causing her mental
distress or whether the ward was merely missing the pastor and that was what was causing her change
in behavior.
OPINION:
VUKOVICH, J.

After the reversal by the Appellate Court, the current charges, on May 31,2012, Defendant was secretly
indicted with the charges which are the origin of this action. This new case allowed for further
persecution of the defendant with Judge Evans presiding.
It began when Defendant in this case was inexplicably instructed by his Defense Counsel to waive his
right to a jury trial and instead, his case was presided over by one judge, Judge James C. Evans.
• We need now focus on Judge Evans and his actions, as compared to what existing findings and statutes
describe and command.
As addressed in 28 U.S.C.S. $455. Disqualification of justice, judge or magistrate [magistrate judge]
(a) Any justice, judge, or magistrate [magistrate judge] of the United States shall disqualify himself in
any proceeding in which his impartiality might reasonably be questioned.
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or personal knowledge of
disputed evidentiary facts concerning the proceeding;
The use of the word “shall” as it appears in both (a) and (b) removes any ambiguity about what
compulsory action is required to occur and that those actions be performed without any action by the
defense.
United States v. Brown. 539 F.2d 467.
9

[HN3] Procedural Due Process, Scope of Protection
A fair trial in a fair tribunal is a basic requirement of due process. Fairness requires an absence of
actual bias in the trial of cases. Every procedure which would offer a possible temptation to the
average man as a judge not to hold the balance nice, clear, and true between the State and the accused,
denies the latter due process of law. To perform its high function in the best way justice must satisfy
the appearance of justice.
[HN4] Procedural Due Process, Scope of Protection
The proper administration ofjustice requires of a judge not only actual impartiality, but also the
appearance of a detached impartiality.
[HN5] Disqualification & Recusal, Federal Judges
The new recusal statute, 28 U.S.C.S. 455 (a), (b), requires mandatory disqualification of a judge in any
proceeding in which his impartiality might reasonably be questioned, or where he was a personal bias
or prejudice concerning a party.
In re United States, 441 F 3d. 44, 2006 U.S. Aw. LEXIS 1119 at [HN18} “There is no reasonable basis
to question the impartiality of the judge. The high standard does not depend on a showing of actual
bias. It requires instead that there be no reasonable question, in any informed person's mind, as to the
impartiality of the judge. Under 28 U.S.C.S. § 455 (a), what matters is not the reality of bias or
prejudice but its appearance, and quite simply and quite universally, recusal is required whenever
impartiality might reasonably be questioned. Justice must satisfy the appearance of justice. The very
purpose of § 455 (a), is to promote confidence in the judiciary by avoiding even the appearance of
impropriety whenever possible.”
Recusal statute, 28 USCS § 455(a) and (b), requires mandatory disqualification of judge in any
proceeding in which his impartiality might reasonably be questioned or where he has personal bias or
prejudice concerning party. United States v. Brown. 539 F.2d 467. 1976 U.S. App. LEXIS 6954 15 th
Cir. 1976V
United States v. Brown, 539 F.2d 467.
[HN2] Within the purview of a fair trial, the judge himself is on trial, and must be always aware of that
fact.

10

[HN3] A fair trial in a fair tribunal is a basic requirement of due process. Fairness requires an absence
of actual bias in the trial of cases. Every procedure which would offer a possible temptation to the
average man as a judge not to hold the balance nice, clear, and true between the State and the accused,
denies the latter due process of law. To perform its high function in the best way justice must satisfy
the appearance ofjustice
In Roberts v Bailor, 625 F.2d 125 at [HN4] A judge's introspective estimate of his own ability
impartially to hear a case is not the determinate of disqualification under 28 USCS § 455(a).The
standard is objective. It asks what a reasonable person knowing all the relevant facts would think about
the impartiality of the judge. If there is a reasonable factual basis for doubting the judge's impartiality,
the judge should disqualify himself and let another judge preside over the case. Even where the
question is close, the mdge whose impartiality might reasonably be questioned must recuse himself
from the trial. (Emphasis added)
In United States V Sierra Pac. Indus.. 759 F. Supp. 2d 1198. at [HN3], the “appearance” and the
“perspective” used to determine recusal is specifically addressed as follows:
[HN3] Recusal is required under 28 U.S.C.S. § 455(a) even when a judge lacks actual knowledge of
the facts indicating his interest or bias in the case if a reasonable person, knowing all the
circumstances, would expect that the judge would have actual knowledge. Thus, what matters under §
455(a) is not the reality of bias or prejudice but its appearance. This inquiry is an objective one, made
from the perspective of a reasonable person who is informed of all the surrounding facts and
circumstances. However, the reasonable person is not hypersensitive or unduly suspicious, but is a
well-informed, thoughtful observer.
Clearly there is a hostile history between the Defendant and Judge James C. Evans that, simply put,
CAN NOT be overlooked or treated as acceptable. Through application of the Recusal Statute and the
clearly expressed requirements therein, it is evident that the Defendant has been subjected to
proceedings, presided over by a judge whom bore the responsibility to recuse himself thereby negating
the validity of the proceedings and demanding immediate action to address and correct.
Question II

11

Now in reference to question II we will examine the circumstances surrounding the withholding of
evidence, by the prosecution, that was favorable to the defense. In a case of this nature where there was
a complete absence of tangible evidence, every effort to examine ALL pertinent and admissible
evidence must be accomplished. Extrinsic evidence, in the form of a transcript from a probate hearing
involving O.H. was in the possession of the prosecution and withheld from the defense. This transcript
shows second instance of prior inconsistent statements by O.H. and meets the requirements as
described in; USCS Fed. Rules of Evid. R. 613. (b), Ohio Evid. R.613. (B), and Ohio Evid. R.801. (PL
USCS Fed. Rules of Evid. R. 613. (b) - (b) Extrinsic Evidence of a Prior Inconsistent
Statement. Extrinsic evidence of a witness’s prior inconsistent statement is admissible only if the
witness is given an opportunity to explain or deny the statement and an adverse party is given an
opportunity to examine the witness about it, or if justice so requires. This subdivision (b) does not
apply to an opposing party’s statement under Rule 801 (d)(2).
Ohio Evid. R. 613, (B) - (B) Extrinsic evidence of prior inconsistent statement of witness.
Extrinsic evidence of a prior inconsistent statement by a witness is admissible if both of the following
apply:
(1) If the statement is offered solely for the purpose of impeaching the witness, the witness is afforded
a prior opportunity to explain or deny the statement and the opposite party is afforded an opportunity
to interrogate the witness on the statement or the interests of justice otherwise require;
(2) The subject matter of the statement is one of the following:
(a) A fact that is of consequence to the determination of the action other than the credibility of a
witness;
(b) A fact that may be shown by extrinsic evidence under Evid. R. 608(A), 609, 616(A), or 616(B);
(c) A fact that may be shown by extrinsic evidence under the common law of impeachment if not in
conflict with the Rules of Evidence.
Ohio Evid. R.801. (D)
(D)Statements that are not hearsay.
A statement is not hearsay if:
Prior statement by witness. The declarant testifies at trial or hearing and is subject to examination
concerning the statement, and the statement is (a) inconsistent with declarant's testimony, and was
given under oath subject to examination by the party against whom the statement is offered and subject
12

to the penalty of perjury at a trial, hearing, or other proceeding, or in a deposition, or (b) consistent
with declarant's testimony and is offered to rebut an express or implied charge against declarant of
recent fabrication or improper influence or motive, or (c) one of identification of a person soon after
perceiving the person, if the circumstances demonstrate the reliability of the prior identification.
With the supposition that we have established the admissibility of the probate court transcripts
containing the second recorded instance of previous and contradictory testimony by O.H., we now rely
on “Brady” to delineate the established principles and precedents regarding the withholding of
favorable evidence.
In Brady v Maryland, 373 US.83 [HN1] is explicit and succinct and reads as follows;
[HN1] - The suppression of evidence favorable to an accused is itself sufficient to amount to a denial
of due process. (Emphasis Added)
[HN3] The suppression by the prosecution of evidence favorable to an accused upon request violates
due process where the evidence is material either to guilt or to punishment, irrespective of the good
faith or bad faith of the prosecution. (Emphasis Added)
The Court held that the defendant can show a Brady violation by demonstrating that the trier of fact
could reasonably take the favorable evidence to put the whole case in such a light that it undermines
confidence in the verdict. There does not have to be a demonstration that the disclosure of the
suppressed evidence would have resulted in an acquittal. Once the reviewing court has found
constitutional error, the standard of review is no longer harmless error because the constitutional
standard for materiality imposes a higher burden than harmless error. The government’s obligation to
disclose evidence turns on the cumulative effect of all the suppressed evidence favorable to the
defendant, not on the evidence considered item by item. (Emphasis Added)

Further we see that there is no need for a specific request for a specific piece of evidence as appears in;
Ky/esy Whitley, 514 US. 419, [HN1] The prosecution has an affirmative duty to disclose evidence
favorable to a defendant. The suppression by the prosecution of evidence favorable to an accused upon
13

request violates due process where the evidence is material either to guilt or to punishment,
irrespective of the good faith or bad faith of the prosecution.
1° United States v Bagiev, 473 U.S. 667, 675, (1985) f*674] [^f 4 ] The Court of Appeals apparently
based its reversal, however, on the theory that the Government's failure to disclose the
requested Brady information that respondent could have used to conduct an effective crossexamination impaired respondent's right to confront adverse witnesses. The court noted:
"In Davis v. Alaska, ... the Supreme Court held [****15] that the denial of the 'right of effective crossexamination' was "'constitutional error of the first magnitude"' requiring automatic reversal."719
F.2d.at (quoting Davis v Alaska, 415 U.S. 308, 318 (1974)) (emphasis added by Court of Appeals). In
the last sentence of its opinion, the Court of Appeals concluded: "we hold that the government's failure
to provide requested Brady information to Bagley so that he could effectively cross-examine two
important government witnesses requires an automatic reversal."719 F2. d. at 1464.
As seen in both Brady and again in Bagley, the withholding of evidence most certainly creates a
negative impact to the defense process by and through several possibilities. Non-disclosure can affect
witness lists, cross examinations and may have led to further admissible evidence. As stated earlier
herein, the lack of tangible evidence necessitates the use by defense of any and all evidence favorable
to the defendant and unfavorable to his accuser. This case is replete with accusations, denials and
opinions but lacking in irrefutable proof of guilt.
Additionally, in USCS Fed Rules Crim. Proc. R. 52(b) we are inculcated that;
(b) Plain error. A plain error that affects substantial rights may be considered even though it was not
brought to the court’s attention.”
Questions III & IV
In question III we ask if the Defendant was denied effective assistance of counsel as prescribed in the
sixth amendment, and in question IV, was there an obvious lack of competence demonstrated by his
Counsel?

14

With the understanding that the accused has the burden of proof on the issues of counsel’s
ineffectiveness, and counsel’s performance will not be deemed ineffective unless the accused
establishes that counsel’s performance fell below an objective standard of reasonable representation.
To establish prejudice, the accused must show that there exists a reasonable probability that, were it
not for counsel’s error, the result of the trial would have been different.
Defendant propositions that in a proceeding comprised in its entirety, of accusations, denials and
tendered opinions, the choices available to a defense strategy are both finite and clear. To be
reasonable by any measure, an investigation is undeniably essential for thorough evaluation of
available evidence and is a part of even the most basic of criminal proceedings. Without a preliminary
investigation how can Counsel begin to form a strategy to defend against accusations or contend that
there ever existed a “strategy?”
In Strickland v. Washington, 466 U.S. 668.
[HN2] A person accused of a federal or state crime has the right to have counsel appointed if retained
counsel cannot be obtained. That a person who happens to be a lawyer is present at trial alongside the
accused, however, is not enough to satisfy the constitutional command. The Sixth
Amendment recognizes the right to the assistance of counsel because it envisions counsel's playing a
role that is critical to the ability of the adversarial system to produce just results. An accused is entitled
to be assisted by an attorney, whether retained or appointed, who plays the role necessary to ensure
that the trial is fair.
[HN3] The right to counsel is the right to the effective assistance of counsel. Government violates the
right to effective assistance when it interferes in certain ways with the ability of counsel to make
independent decisions about how to conduct the defense. Counsel, however, can also deprive a
defendant of the right to effective assistance, simply by failing to render adequate legal assistance.
CRIMINAL LAW §46.4 > ineffective counsel — > Headnote:
LEdHN[7] Counsel can deprive a defendant of the right to effective assistance of counsel simply by
failing to render adequate legal assistance.
15

EVIDENCE §419 > presumption - denial of counsel - > Headnote:
LEdHN[22] Actual or constructive denial of the assistance of counsel altogether is legally presumed to
result in prejudice.
While “Strickland” analyzes ineffective assistance in the context of capital sentencing, “Cronic ”
analyzed it in the context of trial conviction.
In United States v Cronic. 466 U.S. 648.
[HN1] An accused's right to be represented by counsel is a fundamental component of our criminal
justice system. Lawyers in criminal cases are necessities, not luxuries.
[HN3] It has long been recognized that the right to counsel is the right to the effective assistance of
counsel. The text of U.S. Const. Amend. VI itself suggests as much. The Sixth Amendment requires
not merely the provision of counsel to the accused, but assistance, which is to be for his defense.
[HN4] If no actual assistance for the accused's defense is provided, then the constitutional guarantee
has been violated.
[HN5] The accused is entitled to a reasonably competent attorney whose advice is within the range of
competence demanded of attorneys in criminal cases. The United States Constitution guarantees an
accused adequate legal assistance. A criminal defendant has a constitutional guarantee of a fair trial
and a competent attorney.
Further, we see in Akron Bar Ass ’n v. Maher. 110 Ohio St. 3d 346.
[HN1] Ohio Code Prof. Resp. DR6-101(A)(1) prohibits a lawyer from representing a client in a legal
matter that the lawyer is professionally incompetent to manage.
[HN2] Duties to Client, Effective Representation
Ohio Code Prof. Resp. DR 6-101(A)(3) prohibits a lawyer from neglecting an entrusted legal matter.
[HN3] Duties to Client, Effective Representation.
Ohio Code Prof. Resp. DR 7-101 (A)(2) prohibits a lawyer from intentionally failing to carry out a
contract of professional employment.
In Wizsins v Smith. 539 U.S. 510. we see;

16

[HN4] Strategic choices made after thorough investigation of law and facts relevant to plausible
options are virtually unchallengeable; and strategic choices made after less than complete investigation
are reasonable precisely to the extent that reasonable professional judgments support the limitations on
investigation. In other words, counsel has a duty to make reasonable investigations or to make a
reasonable decision that makes particular investigations unnecessary. In any ineffectiveness case, a
particular decision not to investigate must be directly assessed for reasonableness in all the
circumstances, applying a heavy measure of deference to counsel's judgments. (Emphasis added).
[HN5] Defense counsel has a duty to make reasonable investigations.

In United States v Berm, 476 F.2d 1127. we see direct application to sexual abuse suffered by
“mentally abnormal girls” and the necessary scrutiny to minimize resulting danger of an incorrect
finding of guilt against the accused perpetrator despite his innocence.
Principally here, in the defendant’s case where there was an incestuous “rape” perpetrated by her
mother and her mother’s boyfriend which was previously adjudicated resulting in the conviction of
both offenders, must such awareness and scrutiny be applied in order to insure that justice is served
and an innocent man not be imprisoned. Clearly the sexual abuse suffered by O.H. at the hands of her
mother and her mother’s boyfriend must have had some impact on O.H.’s emotional and mental
condition. Therefore, the possibility of mental transference most certainly exists where the emotions
and memories from one event becomes skewed and incorrectly associated with a different situation.
United States v Benn. 476 F.2d 1127.
[HN2] Sexual Assault, Abuse of Adults
It is generally agreed that sexual assault charges by mentally abnormal girls should be subjected to
great scrutiny. There is real danger of contrivance or imagination-the events may seem real to the girl
even though they exist only in her own mind. Yet that testimony may arouse enough sympathy to make
an innocent man the real victim.
[HN6] Counsel, Right to Counsel
To make the right to the effective assistance of counsel viable requires some assurance that counsel's
trial decisions actually reflect an exercise of his professional judgment.

17

[HN7] Effective Assistance of Counsel, Tests for Ineffective Assistance of Counsel
In examining the acceptable boundaries of the exercise of judgment by counsel, a court can find
ineffectiveness if counsel's choice of trial tactics is not deliberate, no reasonable lawyer would have so
acted, or the decision is a result of ignorance of the law or inadequate preparation.
[HN9] Relief From Judgments, Motions for New Trials
A meritorious ineffectiveness claim is available on a motion for a new trial. The claim may be
supported by evidence dehors the record without a showing of due diligence.

18

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Ronald Pyles Jr., #634-885

19

